,1

•*/

O

/MP
xi-

2J-2H
‘^Sujjreme TTourt oj'tfie ^C^nitecf^States

Shantubhai N. Shah, Pro Se, Petitioner
v.

Meier Enterprises, Inc., Respondent
FILED
AUG 0 7 2021
ON PETITION FOR A WRIT OF
CERTIORARI
TO THE UNITED STATES COURT OF
APPEALS FOR THE NINTH
CIRCUIT
PETITION FOR A WRIT OF CERTIORARI

Shantubhai N. Shah, Pro Se
6637 SW 88th Place
Portland, Oregon 97223
Phone: 503-272-8843

Received
AUG 13 2m

QUESTIONS PRESENTED FOR REVIEW
Petitioner claims of employment discrimination were denied by the District
Court of Oregon, affirmed by the Ninth Circuit Court of Appeals, both using the
Same-Actor Inference standard, not codified by the Congress in Title VH language.
1. Whether the Ninth Circuit Court of Appeals Same-Actor Employment
Discrimination Inference Standard creates an Issue of Genuine Material
Facts for a Fair-Minded Jury (U.S. Constitution Seventh Amendment) to
Decide Title VII of the Civil Rights Act of 1964 Violation, in Contrast with
the 2nd and 7th Circuits Summary Judgment Standard, viewed in Light
Most Favorable to the Complainant?
Petitioner motion for Remand was denied by the District Court and Appeals
interpretation of what is adequate service of summons to a defendant, in contrast
with the precedent by the State Supreme Court. 28 U.S. Code § 1447. Respondent
did not remove the case during the first receipt of summons and complaint,
pursuant to 28 U.S. Code § 1446 - Procedure for removal of civil actions.
2. Whether the Court of Appeals Should Decide a meaning of a State Statute,
Certify the Question to the State Supreme Court, or Remand the Case to
the State Trial Court, when a Case is Removed for a Federal Question
Under 28 U.S.C. § 1441?

i

PETITION FOR A WRIT OF CERTORARI
Pro Se Petitioner Shantubhai N. Shah, respectfully petitions this court for a
Writ of Certiorari to the United States Court of Appeals for the Ninth Circuit to
resolve aforementioned two questions for the justice to prevail forl) the minority and/or older employees hiring and firing practice affirmed by
the Same-actor Nondiscrimination Inference Standard at the 9th Circuit, while
disallowed at the 7th, 8th, and 11th Circuit Courts of Appeals and,
2) the plaintiffs who oppose the removal of their cases to the federal court for
the removal process defects, ignored by the federal trial and appeals courts in conflict
with- a) the United States Constitution, b) Federal Removal Statutes, and c) the
Rules of State Civil Service Procedure.
PARTIES TO THE PROCEDDING
Petitioner- Shantubhai N. Shah is an 80-year-old, Asian American U.S. Citizen.
Respondent^ Meier Enterprises, Inc., incorporated in the State of Washington.

ii

BELATED PROCEEDING
United States Court of Appeals (9th Circuit)- Shantubhai N. Shah v.
Meier Enterprises Inc. et al (District Court of Oregon No. 3:17-cv-00226*JE,
Filed April 26, 2018) (Appendix l).
Court of Appeals for the 9th Circuit Case No. 18-35962 (Argued and
Submitted April 13, 2021 — Seattle, Washington, Filed May 17, 2021)
(Appendix 2).
Ninth Circuit Petition for reh’g denied, June 17, 2021 (Appendix 9).
JURISDICTION
This court has a Jurisdiction in this case pursuant to Rule 10 (a) since the
United States Court of Appeals for the 9th Circuit has:
l) entered a decision in contrast with the precedents by The United
States Supreme Court and the Circuit Court of Appeals for the 7th, 8th, and
11th Circuits on the same important matter, and
2) decided an important state statute in a way that conflicts with prior
decisions by the Oregon Supreme Court, so as to call for an exercise of this
Court's supervisory power.

iii

TABLE OF AUTHORITIES
Page#

Cases
Alphin v. Sears, Roebuck & Co., 940 F.2d 1497, 1500
(11th Cir. 1991)

10

Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 255, 91 L. Ed. 2d 202,
15, 96a
106 S. Ct. 2505 (1986)
Antonio v. Sygma Network Lie., 458 F.3d 1177,1183
(10th Cir. 2006)

5,9

Benson v. Tocco, 113 F.3d 1203, 1207-08 (llth Cir.1997)

11

Bob Jones Univ. v. United States, 461 U.S. 574, 592-93 (1983)

8

Bradley v. Harcourt, Brace and Co., 104 F.3d 267, 270-71
(9th Cir. 1996)

12

Brown v. Board ofEducation, 347 U. S. 483 (1954)

7,8

Brown v. CSC Logic, Inc., 82 F.3d 651, 658 (5th Cir. 1996)

6, 9, 12

Carter v. City ofMiami, 870 F.2d 578, 583 (llth Cir.1989)

11

Cordell v. Verizon Commc’n, Inc., 331 F.App’x. 56, 58 (2d Cir. 2009) 5, 9
Cogblan v. Am. Seafoods Co., 413 F.3d 1090,1096 (9th Cir. 2005)

2, 5, 9

Combs v. Plantation Patterns, 106 F.3d 1519, 1532 (llth Cir.1997) 11
Edwards v. Edwards TC 16-85-06382; CA A48610; SC S36265; 801
16, 131a
P.2d 782 (1990) 310 Or. 672
EEOC v. Our Lady ofResurrection Med Ctr., 77 F.3d 145,152
6, 12

(7th Cir. 1996)

Evans v. Technologies Applications & Service Co., 80 F.3d 954, 959
12

(4th Cir. 1996)

Halsell v. Kimberly-Clark Corp., 683 F.2d 285, 290 (8th Cir.1982) 10
Haun v. Ideal Indus., Inc., 81 F.3d 541, 546 (5th Cir. 1996)

9

Kells v. Sinclair Buick-GMC Truck, Inc., 210 F.3d 827, 835
9

(8th Cir. 2000)

iv

u

')

TABLE OF AUTHORITIES (Cont’d)
LeBlanc v. Great American Ins. Co., 6 F.3d 836, 847 (1st Cir. 1993) 5, 9
Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 587,
106 S.Ct. 1348,1356, 89 L.Ed.2d 538 (1986)

10

McDonnell Douglas Corp. v. Green, 411 U.S. 792, 93 S.Ct. 1817, 36 L.Ed.2d
668 (1973)
11, 15, 84a
McKinney v. Office of Sheriff of Whitley County, No. 16-4131, 2017 WL
3389370 (7th Cir. Aug. 8, 2017)
3, 9, 10,13,14, 124a
Mitchell v. Worldwide Underwriters Ins. Co., 967 F.2d 565, 566
(11th Cir.1992)

11

Naffcy v. Illinois Dep't ofHuman Servs., 697 F.3d 504, 509
(7th Cir.2012)

14

Plessy v. Ferguson

7,8

Perez v. Thorntons, Inc., 731 F.3d 699, 710 (7th Cir. 2013)

14, 16

Plessy v. Ferguson, 163 U. S. 537 (1896)

8

Proud v. Stone, 945 F.2d 796 (4th Cir. 1991)

6

Quintanilla, supra note 9, at 214—15

5,6

Reeves v. Sanderson Plumbing Prods., Inc., 530 U.S. 133 (2000)

6

Torgerson v. City ofRochester, 643 F.3d 1031 (8th Cir. 2011))

9

United States v. Diebold, Inc., 369 U.S. 654, 655, 82 S.Ct. 993, 994,
8 L.E.2d 176 (1962)

10

Waldron v. SL Industries Inc., 56 F.3d 491, 496 n.6
(3d Cir. 1995)

5, 9, 13

Weiss v. JPMorgan Chase & Company, 2d Circ., No. 08-0801,
(June 5, 2009 )

3

Wexler v. White's Fine Furniture, Inc., 317 F.3d 564, 573
(6th Cir. 2003)

9

\a
Eleventh Circuit)

10

In.

1

c.

u

TABLE OF AUTHORITIES (Cont’d)
Constitutional Provisions

Page #

Seventh Amendment of the United States Constitution

i

Statutes
Title VII of the Civil Rights Act of 1964

i, 3, 4, 5, 6, 9, 11, 17

The Age Discrimination in Employment Act of 1967 (ADEA)

5, 6,11

28 U S. Code § 1441 - Removal of civil actions

i, 17

28 U.S. Code § 1446 - Procedure for removal of civil actions

i, 18

28 U.S. Code § 1447 - Procedure after removal generally

i

Oregon R. Civ. P. 7 (D)

16, 17, 18

• .r

vi

)

TABLE OF CONTENTS

Page#

QUESTION PRESENTED FOR REVIEW

1

PETITION FOR A WRIT OF CERTORARI

n

PARTIES TO THE PROCEEDING

n

RELATED PROCEEDING

m

JURISDICTION

in

TABLE OF AUTHORITIES

IV, V, VI

APPENDIX LIST

vni

INTRODUCTION

1-2

STATEMENT OF THE CASE

2-4

REASONS FOR GRANTING THE PETITION

4-17

I. SAME ACTOR DISCRIMINATION CIRCUIT SPLIT

II.

5-16

a. Same Actor Employment Inference Jurisprudence

5-14

b. Ninth Circuit decision in contrast with precedents

14-15

c. Ninth Circuit in contrast to McDonnell Douglas

15-16

OREGON STATUTE QUESTION

16

a. Reasonably Calculated Method of Service

16-17

CONCLUSION

17-18

CERTIFICATE OF SERVICE

19

vii

c

J
APPENDIX No.

Page#

1. Opinion and Order of the U.S. District Court for the District of Oregon
3:i7-cv-00226-JE (Sept. 17, 2015)

la-21a

2. Opinion of the United States Court of Appeals for the Ninth Circuit
18-35962 (May 17, 2021)

22a - 31a

3. Plaintiff’s Response to Defendants Cross Motion for Summary
Judgment 3:17-cv-00226-JE (May 21, 2018)

32a - 83a

4. McDonnell Douglas Corp. v. Green (1973) No. 72-490 (May 14,
1973)

84a — 95a

5. Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 255, 91 L. Ed. 2d
202, 106 S. Ct. 2505 (1986)

96a - 123a

6. McKinney v. Office of Sheriff of Whitley County, No. 16*4131, 2017
WL 3389370 (7th Cir. Aug. 8, 2017

124a - 130a

7. Edwards v. Edwards TC 16-85-06382; CA A48610; SC S36265; 801
P.2d 782 (1990) 310 Or. 672
131a -141a
8. Seventh Circuit Review Volume 13 Fall 2017

142a-169a

9. Ninth Circuit Court of Appeals 18-34062 Order- Rehearing Denied
(June 17, 2021)

170a

viii

1

L
INTRODUCTION

Petitioner is a registered professional engineer in Oregon and
Washington with over forty years’ experience in engineering projects and
department management, including General Services Administration prime
contract for twin projects to protect federal buildings at large, and the
Bonneville Power Administration Headquarters Building Electrical Systems,
prior to the brief employment with the Respondent, an engineering services
organization based in Kennewick, Washington.
Respondent invited Petitioner for an interview to Respondent’s
Kennewick, WA office, proposed by an employment agency for an Electrical
Department Manager position, for which he had extensive experience, but
Respondent hired him out of necessity to a subordinate position of Senior
Electrical Engineer and Project manager at Respondent’s remote field office in
Vancouver Washington for a short time, vacated by the resignation of an
engineer at Vancouver office during the time of Petitioner’s interview.
Within two months after hiring Petitioner, Respondent hires a several
years younger Caucasian employee with no experience in engineering
department management to the open position of Electrical Engineering
Department Manager with a much higher salary and a bonus, that was not
offered to the Petitioner, and terminates him transferring his electrical
engineering projects to the younger Caucasian employee.

l

r

J

Respondent does not fill the Vancouver office project manager position,
and closes the Vancouver office after a few months of Petitioner termination.
STATEMENT OF THE CASE
District Court’s Opinion,1 is a Respondents’ pretext, since Petitioner was
invited for an interview based on his qualifications for the vacant Department
position, verified with Petitioner’s three references by the employment agency
engaged by Respondent.
Petitioner’s Work performance is a pretext also, since there was no work
performance formal review made before Petitioner was let go, after hiring a
Caucasian younger candidate for the advertised position. Three-month review
was done for all other employees, while petitioner was let go within two months
without a review to save employment agency’s finder fee. These genuine
materials facts are the jury function, which U. S. District Court Opinion linked,
with a Same Actor Inference2, in light most favorable to the movant, rather
than “when viewed in light most favorable to the complainant”, a summary
judgment requirement.* The 2nd U.S. Circuit Court of Appeals reversed a
summary judgment for an employer in an age discrimination case, holding that

1 Appendix 1, Opinion and Order - 20a “Plaintiffs lack of qualifications for the Group Manager
position as opposed to the Senior Electrical Engineer/Project manager position, and Plaintiffs
unsatisfactory work performance.”
2 Appendix 1, Opinion and Order *20a “[t]he same actor is responsible for both the hiring and
the firing of a discrimination plaintiff, and both actions occur within a short period of time, a
strong inference arises that there was no discriminatory action.” Coghlan v. Am. Seafoods Co.,
413 F.3d 1090, 1096 (9th Cir. 2005)
3 14 CFR § 16.26 (c) (l)
2

(

the lower court “failed to construe the evidence in the light most favorable to
the [the employee] and to draw all permissible inferences in [his] favor.4
District Court of Oregon failed5 to construe genuine material facts from
Plaintiffs Response to Defendant’s pretext in light most favorable to
complainant, jury could determine.
Defendants treated Petitioner disparately than Respondents similarly
situated Caucasian employees Messrs. Zimmer, Waterman, and Ferris,0 as in
McKinney, “Yet patch after patch, the defense arguments for summary
judgment still will not hold water. McKinney presented evidence that he was
treated differently than his similarly situated colleagues who are not black.”7
However, the Ninth Circuit embraced the Same Actor Inference”
standard in the light most favorable to the movant, rather than viewing the
material facts in the light most favorable for the nonmovant as the common
law summary judgment standard, considering the fact that all department
managers hired previously by the defendant were Caucasian, none
represented by a member of the minority group, a racial animus towards an
interviewee protected by Title VII. This genuine issue of material fact alone
against the L&I pretext proffered by the defendant to consider is a jury

4 Weiss v. JPMorgan Chase & Company, 2d Circ., No. 08-0801, June 5, 2009.
5 Appendix 1 Opinion and Order of U.S. District Court of Oregon 18-35962 Page 19
6 Appendix 3, Pages 33a-35a, Plaintiffs Response to Defendants Cross Motion May 28, 2018
iLAppp-nd'ixS—AJiiKinnev v Office ofSheriffof Whitlev County. No. 16-4131. 2017 WL 3389370 (7th
Cir. Aug. 8, 2017)
8 Appendix 2, Page 28a, Memorandum of the U.S. Court of Appeals for the Ninth Circuit 18-35962
3

(

function. Same*Actor Inference, an additional burden9 on the claimant, must
be denied at a summary judgment.
Here there is a genuine issue of material facts of strong prima facia
evidence of age and race discrimination, that Plaintiff was denied a vacant
electrical department manager position though qualified and experienced for
the open position and was offered a temporary lower position of a project
manager for a remote office out of necessity, keeping the managerial position
vacant, later filled with a younger less experienced Caucasian employee,
terminating the several years elder employee and transferring his work to a
newly hired department manager assignment prior to his start.
This extraordinarily strong showing of discrimination10, ignored by the
District Court, alone to support an inference that the defendant based its
employment decision on an illegal criterion, is sufficient to deny summary
judgment for the movant.
Title VII does not codify “extraordinarily strong showing of
discrimination”, a subjective term used by 9th Circuit giving different meaning
to diverse individuals.
REASONS FOR GRANTING CERTIORARI

9 Appendix 8, 7lh Circuit Review, Page 168a
10 Appendix 1 Page 21a, U.S. District Court of Oregon Opinion and Order
4

I. SAME ACTOR DISCRIMINATION CIRCUIT SPLIT
There is a split among the 1st, 2nd, 3rd, 4th, 9th, and 10th Circuit
Courts of Appeals, as against the precedents of the United States Supreme
Court, and the 7th, 8th, and 11th Circuits Courts of Appeals11, in similarly
situated cases for the manifest meaning of Same Actor Inference
discrimination against the older and minority workers’ rights under the Title
VII of the Civil Rights Act of 1964 and ADEA.
Question for this court to resolve is, whether the Same Actor who hires
a Title VII and ADEA protected employee and replaces him (or her) in a short
time span with a younger and less experienced employee(s), giving him (or her)
higher wages and bonus that was not offered to the older employee, could be
found guilty of discrimination.
a. Same Actor Employment Discrimination Inference Jurisprudence
Despite the vast scientific knowledge, many federal courts today elaborate
an

antidiscrimination jurisprudence

that

imposes

on

claimants,

evidentiary burdens which reflect the belief that discrimination against
members of stigmatized groups necessarily manifests as old-fashioned,
blatant prejudice.12

11 See LeBlanc v. Great American Ins. Co., 6 F.3d 836, 847 (1st Cir. 1993); Cordell v. Verizon Commc’n,
Inc., 331 F.App’x. 56, 58 (2d Cir. 2009); Waldron v. SL Industries Inc., 56 F.3d 491, 496 n.6 (3d Cir.
1995); Coghlan v. Am. Seafoods Co. LLC., 413 F.3d 1090, 1096-97 (9th Cir. 2005); Antonio v. Sygma
Network Inc., 458 F.3d 1177, 1183 (10th Cir. 2006).
AL.SeeJMien&_Gaei:l.nei-._supr>T note 4, at 215; Victor D. Quintanilla. Critical Race Empiricism: A New
Means to Measure Civil Procedure, 3 U.C. IRVINE L. REV. 187 (2013); Kimberle Williams Crenshaw,
Race, Reform, and Retrenchment'- Transformation and Legitimation in Antidiscrimination Law, 101
5

(

J

This worldview is in marked tension with the best scientific evidence
available on how discrimination, in fact, operates in American society against
stigmatized groups. As a consequence, the startling and widening societal
disparities in education, employment, housing, and criminal justice between
groups on account of their race, sex, and/or national origin fall farther and
farther beyond reach of existing federal antidiscrimination laws.13 One of the
most egregious examples of the epistemological and material tension between
federal employment discrimination law and psychological science is the
doctrine known as the same-actor inference of nondiscrimination.13
When originally elaborated by the 4th Circuit in Proud v. Stone, the
doctrine applied only when an “employee was hired and fired by the same
person within a relatively short time span.”15 In the two decades since, the
doctrine has widened and broadened in scope. The same-actor inference of
nondiscrimination now extends to many employment contexts beyond hiring
and firing,15 to scenarios in which the “same person” entails groups of decision

HARV. L. REV. 1331 (1988); Charles R. Lawrence HI, The Id, the Ego, and Equal Protection:
Reckoning with Unconscious Racism, 39 STAN. L. REV. 317 (1987); Alan D. Freeman, Legitimizing
Racial Discrimination Through Antidiscrimination Law: A Critical Review of Supreme Court Doctrine,
62 MINN. L. REV. 1049 (1977). California Law Review February 2016, Vol. 104, Victor D. Quintanilla
& Cheryl R. Kaiser (Appendix 2)
,:i See Quintanilla, supra note 9, at 214—15; Derrick A. Bell, Jr., Racial Realism, 24 CONN. L. REV.
363 (1992)
14 Proud v. Stone, 945 F.2d 796 (4th Cir. 1991); infra Part I.A; see, e.g., Brown v. CSC Logic, Inc., 82
F.3d 651, 658 (5th Cir. 1996), abrogated on other grounds by Reeves v. Sanderson Plumbing Prods.,
Inc., 530 U.S. 133 (2000) (Age Discrimination in Employment Act (ADEA) case); EEOC v. Our Lady of
Resurrection Med. Ctr., 77 F.3d 145,152 (7th Cir. 1996) (Title VII race discrimination case); infra Part
II.A.
15 Proud, 945 F.2d at 798; infra Part I.A.
16 See infra Part II.B.l.
6

1V.
makers who make employment decisions,17 and the “short time span” has been
elastically extended to over twelve years.18
While the outer boundaries of the doctrine are both nebulous and in flux,
the same-actor inference may be applicable when the same-actor has taken
both a positive and adverse employment action toward a claimant who brings
an employment discrimination suit. Per the same-actor doctrine, when a
supervisor first behaves in a way that benefits an employee and then
subsequently takes adverse employment action against that employee, many
federal courts conclude that the supervisor's adverse treatment of the
employee is presumptively nondiscriminatory, adopting the strong inference
that the supervisor’s negative employment decision was not motivated by bias.
This strong inference of nondiscrimination is said to he legally justifiable on
grounds of “common sense” about how humans behave and economic
rationality.
The Court in Brown v. Board ofEducation, relying on academic studies,
pointed to changes in society's understanding of the stigmatizing effects of
racial discrimination in reaching its result, noting that "[wlhatever may have
been the extent of psychological knowledge at the time of Plessy v. Ferguson,

17 See infra Part II.B.l
18 See infra Part II.B.l.
7

(

J

'

this finding [of racial stigma] is amply supported by modern authority. Any
language in Plessy v. Ferguson contrary to this finding is rejected.”19
The Court later characterized Brown as having overruled Plessy.20
Regardless of whether the C-aseyplurality's account of the Court's decisions
in West Coast Hotel and Brown was completely accurate, it is clear that,
throughout the Court’s history, at least some Justices have considered changes
in factual understandings to be a key element in determining whether to retain
or overrule precedent.
Logically, the same actor inference suffers from the assumption that
employers who harbor discriminatory intent will always act on it, at least when
hiring. This is questionable and should be critically examined in any case. For
example, if the only qualified candidate is within the protected age class, the
discriminatory employer might accept the "psychological costs" of associating
with applicant, at least until someone not in the disfavored class is available
as in this case only candidate available to Respondent, until few weeks later
Respondent found a much younger candidate he could live with.
Other circuits have minimized the importance of the same* actor
inference, emphasizing that although a court may infer an absence of
Jn Brown, 347 U.S. at 494-95.
20 Bob Jones Univ. v. United States, 461 U.S. 574, 592-93 (1983) ("Prior to 1954, public education in
many places still was conducted under the pall of Plessy v. Ferguson, 163 U. S. 537 (1896); racial
segregation in primary and secondary education prevailed in many parts of the country. This Court's
decision in Brown v. Board ofEducation, 347 U. S. 483 (1954), signaled an end to that era.") (citation
omitted).
8

)

discrimination where the same individual hired and fired the plaintiff, such an
inference is not required. Haun v. Ideal Indus., Inc., 81 F.3d 541, 546 (5th Cir.
1996) ("While evidence of [same actor] circumstances is relevant in
determining whether discrimination occurred, we decline to establish a rule
that no inference of discrimination could arise under such circumstances.");
Waldron v. SL Indus., Inc., 56 F.3d 491, 496 n.6 (3d Cir. 1995) (noting that the
same-actor inference "is simply evidence like any other and should not be
afforded presumptive value").
The same-actor inference is not codified in Title VII, nor any other
federal civil rights statute.21 The same-actor inference has been adopted
across all U.S. Circuit Courts, but its application is not uniform. Some
circuits, including the First, Second, Third, Ninth, and Tenth, have
adopted the Fourth Circuit’s use of the same-actor inference and apply
it to discrimination claims at the pleading and summary judgment
stage.22 Other circuits have limited the scope of the common inference
to cases where there are genuine issues of material fact.22

21 Appendix 6, SEVENTH CIRCUIT REVIEW Volume 13 Fall 2017, McKinney v. Office of Sheriff of
Whitley Cnty., 866 F.3d 803, 814-15 (7th Cir. 2017). MICHAEL G. ZOLFO
22 See LeBlanc v. Great American Ins. Co., 6 F.3d 836, 847 (1st Cir. 1993); Cordell v. Verizon
Commc’n, Inc., 331 F.App’x. 56, 58 (2d Cir. 2009); Waldron v. SL Industries Inc., 56 F.3d 491, 496
n.6 (3d Cir. 1995); Coghlan v. Am. Seafoods Co. LLC., 413 F.3d 1090, 1096-97 (9th Cir. 2005);
Antonio v. Sygma Network Inc., 458 F.3d 1177,1183 (10th Cir. 2006).
23 See, e.g., Brown v. CSC Logic Inc., 82 F.3d 651, 658 (5th Cir. 1996); Wexler v. White’s Fine
K7
Rurnituxe,-Inc.
_______________
___F.3d
; Kells v. Sinclair Buick-GMG
Truck. Inc.. 210
S2V, 835 (8th Cir. 2000) (abrogated on other grounds by Torgerson v. City of Rochester, 643 F.3d
1031 (8th Cir. 2011)).
9

The 7th Circuit has adopted the narrowest application of the
same-actor inference, holding that the inference should only be
considered by the ultimate trier of fact and should not be applied in
motions to dismiss or motions for summary judgment.2 '
The 11th Circuit has taken a similar approach to the Seventh
Circuit. Williams v. VITRO SERVICES CORP. (No. 97-2518, Eleventh
Circuit) “Summary judgment is appropriate where there is no genuine
issue of material fact.

See Fed. R. Civ. P. 56(c). “Where the record

taken as a whole could not lead a rational trier of fact to find for the
nonmoving party, there is no genuine issue for trial.” Matsushita Elec,
Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 587, 106 S.Ct. 1348,
1356, 89 L.Ed.2d 538 (1986) (citation and internal quotation omitted).
On a motion for summary judgment, we must review the record, and all
its inferences, in the light most favorable to the nonmoving party.
United States v. Diebold, Inc., 369 U.S. 654, 655, 82 S.Ct. 993, 994, 8
L.Ed.2d 176 (1962).
In an employment discrimination case, “the plaintiff must produce
sufficient evidence to support an inference that the defendant employer
based its employment decision on an illegal criterion.” Alphin v. Sears,
Roebuck & Co., 940 F.2d 1497, 1500 (llth Cir.1991) (quoting Halsell v.

24 McKinney v. Office of Sheriff of Whitley Cnty., 866 F. 3d 803, 814-15 (7th Cir. 2017).
10

Kimberly-Clark Corp., 683 F.2d 285, 290 (8th Cir.1982)).

At the

summary judgment stage, our inquiry is “whether an ordinary person
could reasonably infer discrimination if the facts presented remained
unrebutted.” Id. (quoting Carter v. City of Miami, 870 F.2d 578, 583
(11th Cir.1989)).
Once a plaintiff has established a prima facie case and has put on
sufficient evidence to allow a factfinder to disbelieve an employer's
proffered explanation for its actions, that alone is enough to preclude
entry of judgment as a matter of law. Combs v. Plantation Patterns,
106 F.3d 1519, 1532 (llth Cir.1997), cert, denied, 522 U.S. 1045, 118
S.Ct. 685, 139 L.Ed.2d 632 (1998).
The lllh circuit has adopted a variation of the test articulated by the
Supreme Court for Title VII claims in McDonnell Douglas Corp. v.
Green, 411 U.S. 792, 93 S.Ct. 1817, 36 L.Ed.2d 668 (1973), for cases
arising under the ADEA. Mitchell v. Worldwide Underwriters Ins. Co.,
967 F.2d 565, 566 (llth Cir.1992).

In order to make out a prima facie

case for an ADEA violation, the plaintiff must show that he (l) was a
member of the protected age group, (2) was subject to adverse
employment action, (3) was qualified to do the job, and (4) was replaced
by a younger individual.

See Benson v. Tocco, 113 F.3d 1203, 1207-08

(llth Cir.1997). These criteria are slightly different in both anJRIF case

11

and where a position is eliminated in its entirety; in these instances,
the plaintiff establishes a prima facie case by demonstrating (l) that he
was in a protected age group and was adversely affected by an
employment decision^ , (2) that he was qualified for his current position
or to assume another position at the time of discharge, and (3) evidence
by which a fact finder reasonably could conclude that the employer
intended to discriminate on the basis of age in reaching that decision.
Id. at 1208.”
The circuit courts have applied varying weights to the strength or value
of the inference that obtains when the hirer and firer are the same actor. See,
e.g., Bradley v. Harcourt, Brace and Co., 104 F.3d 267. 270-71 (9th Cir.1996)
("[Wlhere the same actor is responsible for both the hiring and the firing of a
discrimination plaintiff, and both actions occur within a short period of time,
a strong inference arises that there was no discriminatory motive."); Brown v.
CSC Logic, Inc., 82 F.3d 651. 658 (5th Cir.1996) ("This 'same actor' inference
has been accepted by several other circuit courts, and we now express our
approval."); Evans v. Technologies Applications & Service Co., 80 F.3d 954. 959
(4th Cir.1996) ("[Bjecause Houseman is the same person who hired Evans,
there is a powerful inference that the failure to promote her was not motivated
by discriminatory animus.") (internal quotation and citation omitted);
E.E.O.C. v. Our Lady of Resurrection Med. Ctr.. 77 F.3d 145. 152 (7th
Cir.1996) ("If Boettcher wished to discriminate against Braddy because of her
12

race, she could have refused to hire her in the first place, or she could have
discharged her because other deficient qualifications. Boettcher did neither....
The same hirer/firer inference has strong presumptive value."). But see
Waldron v. SL Industries, Inc., 56 F.3d 491. 496 n. 6 (3rd Cir.1995) ("[Wlhere
... the hirer and firer are the same and the discharge occurred soon after the
plaintiff was hired, the defendant may of course argue to the factfinder that it
should not find discrimination. But this is simply evidence like any other and
should not be accorded any presumptive value.").
The Seventh Circuit Court of Appeals addressed a common
misunderstanding concerning the evidence in discrimination cases and the
appropriate standard at summary judgment.
In McKinney v. Office of Sheriff of Whitley County, No. 16-4131, 2017
WL 3389370 (7th Cir. Aug. 8, 2017), the sheriff hired, and later fired, the first
African-American police officer employed by Whitley County. The plaintiff
filed suit against his former employer, alleging race discrimination. The sheriff
moved for summary judgment, which the trial court granted, but the Seventh
Circuit Court of Appeals reversed, finding that the trial court had applied the
incorrect standard and that the plaintiffs evidence was sufficient to survive
summary judgment.
Although the opinion has several interesting aspects, the most
important part of the decision involves tJtie CourtTffiscussiori of the "Same
13

actor” inference and the common misimpression by employers, and some
attorneys, that think nondiscrimination should be conclusively established
when a supervisor fires an employee after previously making an unbiased
decision to hire that employee.
The Same Actor Inference says it is reasonable to assume that if a
person was unbiased at Time A (when he decided to hire the plaintiff), he was
also unbiased at Time B (when he fired the plaintiff).” Perez v. Thorntons, Inc.,
731 F.3d 699, 710 (7th Cir. 2013). However, it is only an inference and the
Seventh Circuit “clarified that this inference is not a conclusive presumption
and that it should be considered by the ultimate trier of fact rather than on
summary judgment or the pleadings.” McKinney, at *9 (citation omitted).
Examining the evidence in the light most favorable to Perez, and
construing all inferences in her favor, we will affirm summary judgment only
if there are no genuine issues of material fact and Thorntons is entitled to
judgment as a matter of law. Na&cyv. Illinois Dep't ofHuman Servs., 697 F.3d
504, 509 (7th Cir.2012),
b. Ninth Circuit Decision in contrast with precedents
Ninth Circuit affirmed District Court of Oregon Summary Judgment based on
the inference of a same-actor who hires and then fires him in two months
strongly in favor of the movant rather than the nonmovant of the summary
judgment motion ignoring the material fact that, Shah was discriminated from
14

the hiring stage though he was experienced, qualified, and interviewed for the
department position, but was not offered the position and was asked to work
in a field office at a lower position and salary, keeping the department position
open, and the vacant position was later filed up by a less experienced
Caucasian younger employee with a higher salary, is a genuine material fact
that should be voted by a jury at a trial.
c. Ninth Circuit in contrast to McDonnell Douglas
There is strong inference here that the defendant discriminated Shah from
the interview stage, parallel to McDonellDouglas v. Green (1973) in which the
African American Plaintiff, “(ii) applied and was qualified for a job the
employer was trying to fill; (iii) though qualified, he was rejected; and (iv)
thereafter the employer continued to seek applicants with complainant's
qualifications.” McDonell Douglas v. Green P. 411U. S. 802 (1973). Under the
same circumstances Ninth Circuit determination for Petitioner is exactly
opposite to McDonnell Douglas.
The Supreme Court's opinion in Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 255, 91 L. Ed. 2d 202, 106 S. Ct. 2505 (1986) (Appendix 5).
("Credibility determinations, the weighing of the evidence, and the
drawing of legitimate inferences from the facts are jury functions, not those of
a judge, whether he is ruling on a motion for summary judgment or for a
directed verdict. The evidence of the non-movant is to be believed, and all
justifiable inferences are to be drawn in his favor."). Although the factfinder is

15

permitted to draw this inference, it is by no means a mandatory one, and it
may be weakened by other evidence.

* * *

We therefore specifically hold that

where, as in this case, the factfinder decides to draw the same-actor inference,
it is insufficient to warrant summary judgment for the defendant if the
employee has otherwise raised a genuine issue of material fact.
Based on the record (Appendix 3), a jury must weigh the genuine material
facts in this case and decide why Meier Enterprises chose to treat Shah
differently than other employees. “Based on this record, a jury must sort out
the conflicting evidence and decide why Thorntons chose to treat arguably
similar wrongdoing so differently.” Perez v. Thorntons quoted above.
11. OREGON STATUTE QUESTION
There is a split within the Ninth Circuit panel members’ Opinion, and the
Oregon Supreme Court’s previous decisions in similarly situated cases, in the
manifest meaning of the Oregon Statute of Civil Procedure (ORCP 7D) for
reasonably calculated sufficient service 2r’ of summons and complaint process
by First Class Mail with restricted delivery to a defendant. One (l) of the three
(3) Ninth Circuit Panel Members, Judge O'Scannlain, J., dissenting in Shah V.
Meier (18-35962) (Appendix 2, Page 29a, 30a, 31a)
a. Reasonably Calculated Method of Service

25 Appendix 7, Edwards v. EdwardsTC 16*85*06382; CA A48610; SC S36265; 801 P.2d 782 (1990)
310 Or. 672
16

ORCP 7D describes the “manner of service,” but it does not set out every
last way in which service may be accomplished. Lake Oswego Review, Inc. v.
Steinkamp, 298 Or 607, 695 P2d 565 (1985). ORCP 7 contains the words
“shall” and “may”' service shall meet the federal due process standard and
“may” be accomplished in numerous specified ways. ORCP 7 D.
“Compliance with methods or manners of service which are preceded by the
word ‘may’ is not required. The methods of service listed in ORCP 7 D. (2) — (4)
are not exclusive of other methods of service reasonably calculated to apprise
defendant of the action.” Id., at 613-614. Rule 7 requires adequate notice,
accomplished in a manner “reasonably calculated * * * to apprise the defendant
** *

of the action.” Id., at 614.

Under 28 U.S.C. § 1441 (c) JOINDER OF FEDERAL LAW CLAIMS
AND STATE LAW CLAIM: “(2) Upon removal of an action described in
paragraph (l), the district court shall sever from the action all claims described
in paragraph (l)(B) and shall remand the severed claims....... ”
CONCLUSION
I
This court’s balancing power could resolve the Same Actor Inference split
that exists among various circuits in psychologically different treatment of
individuals protected under Title VII, recommended by the 7th and 11th

17

Circuit Court of Appeals in favor of plaintiffs, in contrast to the decisions made
by the 4Ul and 9l h Circuit Courts of Appeals made in favor of defendants.

II
Respondent did not remove the case during the first 30 days from receipt of
a pleading through certified mail. 28 U.S. Code § 1446 (b) (l). District Court
was required to sever, Plaintiffs claim of adequate service, Oregon statute
ORCP 7 (D), and remand to State court, but did not.
Petitioner humbly requests a Certiorari to the Ninth Circuit Court to:
1) Reverse Ninth Circuit Same Actor Inference Standard,
2) Remand case to the state trial court for adjudication, or present a
question to the State Supreme Court to decide the meaning of the state statute
for adequate Service of Summons with a First Class and Certified USPS Mail.
Respectfully Submitted on August 7, 2021.
Shantubhai N. Shah, Petitioner, Pro se

18

